<html>
<title> - HOW THE ADMINISTRATION'S REGULATORY ONSLAUGHT IS AFFECTING WORKERS AND JOB CREATORS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  HOW THE ADMINISTRATION'S REGULATORY
                   ONSLAUGHT IS AFFECTING WORKERS AND
                              JOB CREATORS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, DECEMBER 9, 2015

                               __________

                           Serial No. 114-36

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                              ___________
                              
                              
                         U.S. GOVERNMENT PUBLISHING OFFICE
97-778 PDF                    WASHINGTON : 2016                         
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5334233c13302620273b363f237d303c3e7d">[email&#160;protected]</a>  
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                    TIM WALBERG, Michigan, Chairman

Duncan Hunter, California            Frederica S. Wilson, Florida,
Glenn Thompson, Pennsylvania           Ranking Member
Todd Rokita, Indiana                 Mark Pocan, Wisconsin
Dave Brat, Virginia                  Katherine M. Clark, Massachusetts
Michael D. Bishop, Michigan          Alma S. Adams, North Carolina
Steve Russell, Oklahoma              Mark DeSaulnier, California
Elise Stefanik, New York             Marcia L. Fudge, Ohio
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on December 9, 2015.................................     1

Statement of Members:
    Walberg, Hon. Tim, Chairman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     3
    Wilson, Hon. Frederica S., Ranking Member, Subcommittee on 
      Workforce Protections......................................     4
        Prepared statement of....................................     7

Statement of Witnesses:
    Batkins, Mr. Sam, Director of Regulatory Policy, American 
      Action Forum, Washington, D.C..............................    11
        Prepared statement of....................................    13
    Beebe, Mr. Ralph, President, Highland Engineering, Inc., 
      Howell, MI.................................................    22
        Prepared statement of....................................    25
    Hammock, Mr. Bradford, Shareholder and Co-Leader of the 
      Workplace Safety and Health Practice Group, Jackson Lewis, 
      P.C., Reston, VA...........................................    58
        Prepared statement of....................................    61
    Owens, Ms. Christine, Executive Director, National Employment 
      Law Project, Washington, D.C...............................    31
        Prepared statement of....................................    33

Additional Submissions:
    Chairman Walberg:
        Report from Mercatus Center, George Mason University, 
          entitled "The Unintended Consequences of Federal 
          Regulatory Accumulation"...............................    83
        Working paper from Mercatus Center, George Mason 
          University, entitled "Regulatory Overload: A Behavioral 
          Analysis of Regulatory Compliance".....................    86
        Article from Mercatus Center, George Mason University, 
          entitled "Do More Regulations Equal Less Safety".......   118

 
                  HOW THE ADMINISTRATION'S REGULATORY
                     ONSLAUGHT IS AFFECTING WORKERS
                            AND JOB CREATORS

                              ----------                              


                      Wednesday, December 9, 2015

                        House of Representatives

               Committee on Education and the Workforce,

                 Subcommittee on Workforce Protections

                            Washington, D.C.


    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2175, Rayburn House Office Building. Hon. Tim Walberg 
[Chairman of the subcommittee] presiding.
    Present: Representatives Walberg, Thompson, Rokita, Brat, 
Stefanik, Wilson, Pocan, Clark, and DeSaulnier.
    Also Present: Representative Kline, Representative Courtney 
and Representative Takano.
    Staff Present: Andrew Banducci, Workforce Policy Counsel; 
Ed Gilroy, Director of Workforce Policy; Jessica Goodman, 
Legislative Assistant; Callie Harman, Legislative Assistant; 
Tyler Hernandez, Press Secretary; Nancy Locke, Chief Clerk; 
John Martin, Professional Staff Member; Dominique McKay, Deputy 
Press Secretary, Krisann Pearce, General Counsel; Molly 
McLaughlin Salmi, Deputy Director of Workforce Policy; Alissa 
Strawcutter, Deputy Clerk; Loren Sweatt, Senior Policy Advisor; 
Olivia Voslow, Staff Assistant; Joseph Wheeler, Professional 
Staff Member; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Christine Godinez, Minority Staff Assistant; 
Carolyn Hughes, Minority Senior Labor Policy Advisor; Brian 
Kennedy, Minority General Counsel; Richard Miller, Minority 
Senior Labor Policy Advisor; Amy Peake, Minority Labor Policy 
Advisor; Saloni Sharma, Minority Press Assistant, and Elizabeth 
Watson, Minority Director of Labor Policy.
    Chairman Walberg. Good morning. It is sure quiet in the 
room. After running up two flights of stairs, let me get my 
wind back here.
    A quorum being present, the subcommittee will come to 
order. Good morning. I would like to thank you all for joining 
us today, and thank our witnesses for being here with us to 
share their experiences and perspectives.
    The end of the year is an important time to reflect on what 
has been accomplished and what work remains to be done. As 
members of the Education and the Workforce Committee, this is 
especially important as we consider the significant challenges 
many workers continue to face.
    Recent months have shown signs of economic improvement and 
signs of continued concern, both. Roughly 8 million Americans 
are still unemployed and searching for work, and an additional 
6 million are working part-time hours when they really need and 
want full-time jobs. That does not include the millions of 
individuals who are so discouraged by meager job prospects that 
they have simply dropped out of the workforce entirely.
    Meanwhile, those with jobs are facing fewer opportunities 
to advance and earn higher wages. Some will say the problems 
facing workers and job creators can be solved with more 
spending, more Government mandates, and more regulation. 
Perhaps we will hear some of those claims today, but that is 
the same failed approach that the Obama administration has 
pursued over the last seven years.
    The results have been an anemic economy, sluggish job 
growth, and most importantly, less opportunity and prosperity 
for millions of hard working men and women.
    Time and again, we have called on the administration, 
including those at OSHA and the Department of Labor more 
broadly, to pursue a different, more responsible course, and 
time and again, our calls have been rebuffed.
    The most recent example was the release of the 
administration's regulatory agenda, which doubles down on the 
same extreme regulatory approach that has made the problems 
plaguing the country worse at the expense of those struggling 
the most.
    Let me be clear. Federal policies do play an important role 
in ensuring safe and healthy workplaces and protecting the 
basic rights of hard working men and women. That is not what we 
are here to discuss today.
    The question is not whether there should be rules of the 
road for workers and employers to follow. The question is how 
we ensure those rules are implemented fairly, responsibly, and 
in a way that promotes the best interests of both workers and 
their employers.
    Unfortunately, more often than not, what we have seen from 
this administration is an overly punitive and unnecessarily 
burdensome approach. Adding insult to injury, often these rules 
and regulations are being developed and changed without any 
public input. This regulatory approach is holding us back, and 
that is the focus of today's hearing.
    We know there are areas where we can make meaningful change 
without creating costly consequences and unintended harm. For 
example, Chairman Kline and I have said we are open to 
modernizing current overtime rules to strengthen protections 
for workers and help employers fulfill their legal 
responsibilities.
    Instead, we have had to confront a proposal that will limit 
workplace flexibility, make it harder for workers to advance up 
the economic ladder, and impose a significant burden on small 
businesses.
    Earlier this year, Nicole Berberich, director of human 
resources at the Cincinnati Animal Referral and Emergency 
Center, testified in front of this subcommittee about the 
challenges employers are already facing because of complicated 
federal wage and hour regulations. She also explained that 
small businesses like the one she works for are likely to 
experience the burdens of these regulations disproportionately. 
She added that those burdens will continue to worsen with the 
expected overtime changes.
    At a separate hearing before this same subcommittee, Eric 
Williams, who worked his way up from crew member at a fast food 
restaurant to become a franchise and chief operating officer at 
CKE Restaurants, shared his fears that the administration's 
overtime proposal, and I quote, ``will severely limit hard 
working, talented Americans from realizing their dreams,'' as 
he dreamed and realized. He worries that because of the 
proposal, some employees, and I quote, ``may never reach their 
full potential.'' That is a shame.
    The overtime proposal is just one example of this 
administration's misguided approach to regulating. At another 
hearing, Drew Greenblatt, a steel wire manufacturer from 
Baltimore, spoke to us about how Government policies are 
hindering growth and how he and others in his industry find 
themselves stuck between a rock and a hard place.
    He explained the situation as between, and I quote, ``A 
rock of harsh and unforgiving global economic competition and a 
hard place of inflexible and ever proliferating regulations.''
    It should be clear to anyone who is listening that the 
current regulatory onslaught is making life harder for working 
families and small business owners, not better.
    According to a study commissioned by the National 
Association of Manufacturers, federal regulations cost more 
than $2 trillion in lost economic growth annually, and the 
American Action Forum estimates that the administration imposed 
more than $181 billion in new regulatory costs during 2014 
alone. These are staggering statistics that in many ways 
represent lost wages and fewer jobs for American workers.
    Today, we will hear from our witnesses how this 
unprecedented regulatory approach has created troubling 
concerns for workers and small businesses during the past year. 
My hope is that by demanding more responsible regulatory 
policies we can ensure a prosperous 21st century workplace.
    With that, I will now recognize my Ranking Member, Ms. 
Wilson, for her opening remarks.
    [The information follows:]

   Prepared Statement of Hon. Tim Walberg, Subcommittee on Workforce 
                              Protections

    Good morning. I'd like to thank you all for joining us today and 
thank our witnesses for being here to share their experiences and 
perspectives.
    The end of the year is an important time to reflect on what has 
been accomplished and what work remains to be done. As members of the 
Education and the Workforce Committee, this is especially important as 
we consider the significant challenges many workers continue to face.
    Recent months have shown signs of economic improvement and signs of 
continued concern. Roughly eight million Americans are still unemployed 
and searching for work, and an additional six million are working part-
time hours when they really need and want full-time jobs. And that 
doesn't include the millions of individuals who are so discouraged by 
meager job prospects that they have dropped out of the workforce 
entirely. Meanwhile, those with jobs are facing fewer opportunities to 
advance and earn higher wages.
    Some will say the problems facing workers and job creators can be 
solved with more spending, more government mandates, and more 
regulation. Perhaps we will hear some of those claims today, but that's 
the same failed approach the Obama administration has pursued over the 
last seven years. The results have been an anemic economy, sluggish job 
growth, and most importantly, less opportunity and prosperity for 
millions of hardworking men and women.
    Time and again we have called on the administration - including 
those at OSHA and the Department of Labor more broadly - to pursue a 
different, more responsible course, and time and again our calls have 
been rebuffed. The most recent example was the release of the 
administration's regulatory agenda, which doubles-down on the same 
extreme regulatory approach that has made the problems plaguing the 
country worse at the expense of those struggling the most.
    Let me be clear: Federal policies do play an important role in 
ensuring safe and healthy workplaces and protecting the basic rights of 
hardworking men and women. That's not what we are here to discuss 
today. The question isn't whether there should be rules of the road for 
workers and employers to follow. The question is how we ensure those 
rules are implemented fairly, responsibly, and in a way that promotes 
the best interests of both workers and their employers.
    Unfortunately, more often than not, what we've seen from this 
administration is an overly punitive and unnecessarily burdensome 
approach. Adding insult to injury, often these rules and regulations 
are being developed and changed without any public input. This 
regulatory approach is holding us back, and that is the focus of 
today's hearing.
    We know there are areas where we can make meaningful change without 
creating costly consequences and unintended harm. For example, Chairman 
Kline and I have said we are open to modernizing current overtime rules 
to strengthen protections for workers and help employers fulfill their 
legal responsibilities. Instead, we have to confront a proposal that 
will limit workplace flexibility, make it harder for workers to advance 
up the economic ladder, and impose a significant burden on small 
businesses.
    Earlier this year, Nicole Berberich, director of Human Resources at 
the Cincinnati Animal Referral and Emergency Center, testified about 
the challenges employers are already facing because of complicated 
federal wage and hour regulations. She also explained that small 
businesses like the one she works for are likely to experience the 
burdens of these regulations disproportionately. And she added that 
those burdens will continue to worsen with the expected overtime 
changes.
    At a separate hearing, Eric Williams - who worked his way up from a 
crew member at a fast-food restaurant to become a franchisee and chief 
operating officer of CKE Restaurants - shared his fears that the 
administration's overtime proposal ``will severely limit hardworking, 
talented Americans from realizing their dreams.'' He worries that, 
because of the proposal, some employees ``may never reach their 
potential.''
    The overtime proposal is just one example of this administration's 
misguided approach to regulating. At another hearing, Drew Greenblatt, 
a steel wire manufacturer from Baltimore, spoke to us about how 
government policies are hindering growth and how he and others in his 
industry find themselves stuck between a rock and a hard place. He 
explained his situation as between, ``A rock of harsh and unforgiving 
global economic competition and a hard place of inflexible and ever-
proliferating regulations.''
    It should be clear to anyone who is listening that the current 
regulatory onslaught is making life harder for working families and 
small businesses owners, not better. According to a study commissioned 
by the National Association of Manufacturers, federal regulations cost 
more than $2 trillion in lost economic growth annually. And the 
American Action Forum estimates that the administration imposed more 
than $181 billion in new regulatory costs during 2014 alone. These are 
staggering statistics that, in many ways, represent lost wages and 
fewer jobs for American workers.
    Today we will hear from our witnesses how this unprecedented 
regulatory approach has created troubling concerns for workers and 
small businesses during the past year. My hope is that by demanding 
more responsible regulatory policies, we can ensure a prosperous 21st 
century workforce.
    With that, I will now recognize Ranking Member Wilson for her 
opening remarks.
                                 ______
                                 
    Ms. WILSON. Mr. Chairman, I want to thank you for holding 
this hearing and giving us an opportunity to discuss the 
Department of Labor's work to ensure more American workers have 
the protections they need to build a better life for themselves 
and their families.
    The legislation establishing the Department of Labor 
memorialized the agency's honored purpose, to foster, promote, 
and develop the welfare of working people, to improve their 
working conditions, and to advance their opportunities for 
profitable employment.
    Since its inception in 1913 and throughout America's ever 
changing economic and social landscape, DOL has held steadfast 
to this original purpose. Using its court affirmed statutory 
authority, the department has proposed rules to promote fair 
wages, safe workplaces, and equal employment opportunities.
    For instance, I was pleased to hear that DOL released the 
persuader rule for OMB review this week, and will soon finalize 
the rule. Four years in the making, this rule will level the 
playing field for workers wishing to organize by strengthening 
disclosure requirements for employers that hire pricey outside 
consultants to bust union organizing efforts.
    It is my hope that our subcommittee, also tasked with 
promoting the welfare of working people, will join DOL in its 
efforts by passing legislation that supports working families. 
Instead, it seems we are stuck in a perpetual state of inaction 
or flat out obstruction. Efforts to derail DOL's regulations do 
not help workers struggling to get by, create safer workplaces, 
or promote equal opportunity in employment.
    The men and women teetering on the brink of poverty, people 
making $23,660 a year, who are asked to work 50, 60, or 70 
hours a week with no promise of extra pay, are not helped by 
efforts to block DOL's rule to extend overtime protection to 5 
million working Americans.
    The nearly 2.1 million workers exposed to silica and at 
risk of contracting potentially lethal silicosis are not made 
safer by efforts to block full implementation of DOL's 
crystalline silica dust rule.
    Expectant mothers who want nothing more than the ability to 
work and save for their new additions are not comforted by 
efforts to impede EEOC's work to address pregnancy 
discrimination in the workplace.
    Americans are no longer persuaded by some of the offered 
justifications for attempts to block regulations designed to 
protect workers. It is hard to argue the Department of Labor's 
regulatory agenda is causing historic job loss when we are in 
fact in the midst of the longest streak of job growth on 
record. Our economy has added over 13.7 million jobs over 69 
straight months, and we are seeing the lowest unemployment rate 
since April 2008.
    These questionable arguments for blocking DOL's rules must 
make us question the purpose of our pursuits.
    If there is genuine concern for workers, as well as 
businesses, then support a working families agenda that boosts 
wages, so more Americans are economically secure and have the 
increased spending power that supports job creating consumer 
demand. Take up a vote on a working families agenda that 
promotes the strong work/family balance needed for productive 
workers. Pass a working families agenda that promotes the equal 
employment opportunity that is linked to increased 
profitability and ensures all workers have a fair shot at 
success.
    I must remind my colleagues that the department's purpose 
as well as our own is singular and clearly defined, the welfare 
of working people. It is this purpose that we must look to when 
judging DOL's actions as well as our own. We are the Workforce 
Protections Subcommittee. We must protect the workforce.
    I look forward to hearing from the witnesses and what we 
can do to support DOL's efforts to promote the welfare of 
working people.
    To the witnesses, I have read your statements. I want to 
work with you and do what we can to support DOL's efforts to 
promote the welfare of working people.
    Very shortly, in Emancipation Hall at 11:00 a.m., members 
of the Congressional Black Caucus and House and Senate 
leadership will commemorate the 150th anniversary of the 
ratification of the 13th Amendment to the United States 
Constitution, which abolished slavery in the United States. The 
very slaves who built the United States Capitol.
    Thousands fell to their death trying to erect the dome. 
They slept outside in the snow while laying the marble floors 
and columns. The ultimate workforce on whose shoulders we 
stand. They never had or received any protection. There was no 
Department of Labor, no Workforce Protections Subcommittee.
    We cannot turn back. We have made so much progress. Let us 
vow to protect our present workers. After all, we are the 
Workforce Protections Committee, and I want to be proud of our 
work as we protect our workers.
    I want to thank Representative Pocan for substituting for 
me. I have to attend the ceremony, and I yield back my time.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7778.086
    
    [GRAPHIC] [TIFF OMITTED] T7778.087
    
    [GRAPHIC] [TIFF OMITTED] T7778.088
    
    Chairman Walberg. I thank the gentlelady and I thank you 
for reminding us of this celebration today and the 13th 
Amendment and the impact.
    Pursuant to Committee Rule 7(c), all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record, and without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the record, and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    It is now my pleasure to introduce today's witnesses. Mr. 
Sam Batkins is director of regulatory policy at the American 
Action Forum here in Washington, D.C.
    Prior to joining AAF, Mr. Batkins worked at the U.S. 
Chamber of Commerce, Institute for Legal Reform, and the 
National Taxpayers Union. His work has focused on lawsuit 
abuse, tort reform, federal regulation, and state and federal 
spending.
    Mr. Ralph Beebe is president of Highland Engineering, Inc. 
in Howell, Michigan. It is good to see a Michiganian here. That 
is just kind of a personal side line between us, right?
    He is testifying on behalf of the National Federation of 
Independent Business. Highland Engineering manufactures troop 
support equipment and contracts with all branches of the 
Department of Defense, as well as the Federal Emergency 
Management Agency, and foreign militaries.
    In addition to its DOD work, HEI works with commercial 
customers in automation and water treatment areas.
    Ms. Christine Owens is executive director of the National 
Employment Law Project in Washington, D.C. Prior to working 
with the National Employment Law Project, she worked at the 
AFL-CIO as a senior policy analyst specializing in workplace 
equity issues. Much of her work has focused on minimum wage and 
living wage hikes, pay equity, and state unemployment insurance 
coverage expansions.
    Mr. Bradford Hammock is a shareholder and co-leader of the 
Workplace Safety and Health Practice Group for Jackson Lewis in 
Reston, Virginia. Prior to this, Mr. Hammock served as an 
attorney at OSHA, working on regulatory initiatives, compliance 
assistance, and enforcement policies.
    I welcome you all, and as is the policy in this Committee, 
we would ask you now to rise and raise your right hand.
    [Witnesses sworn.]
    Chairman Walberg. Thank you. You may take your seats. Let 
the record reflect the witnesses answered in the affirmative.
    Before I recognize you to provide your testimony, let me 
briefly explain the lighting system, which is probably not 
unfamiliar to most of you. It is like traffic lights. Green, 
keep on going, you have five minutes for your testimony. Yellow 
hits, you have a final minute to wrap up. When red hits, you do 
not have to screech to a stop but come to a conclusion. You 
will have an opportunity to answer further questions during our 
questioning. The same will be true for the members of this 
subcommittee.
    Now, let me recognize for five minutes of testimony, Mr. 
Batkins. Welcome.

   TESTIMONY OF SAM BATKINS, DIRECTOR OF REGULATORY POLICY, 
            AMERICAN ACTION FORUM, WASHINGTON, D.C.

    Mr. Batkins. Thank you, Chairman Walberg, members of the 
Committee. Thank you for the opportunity to appear today.
    In this testimony, I wish to highlight the following 
points: first, by virtually any metric, regulatory activity has 
increased across the federal government, from the 100 major 
rules issues in 2010 to the more than $100 billion in new 
annual regulatory costs. These new measures will affect 
employment.
    Second, there is a general consensus that regulations have 
statistically significant but small effects on industry 
employment. The American Action Forum's work has found that $1 
billion in new annual regulatory costs could cut industry 
employment by 3.6 percent, and third, even federal agencies 
routinely acknowledge the impact of regulations on employment.
    From 2012 to present, 22 rules have conceded they could 
negatively impact employment, resulting in nearly 86,000 lost 
jobs.
    Regulatory activity has undoubtedly increased in recent 
years. The paperwork burden, the number of major rules, and 
monetized regulatory costs, have all trended upward. What does 
this mean for employment?
    We know there are more regulatory compliance officers now 
than ever before, approximately 246,000. As the regulatory 
burden grows, so, too, does demand on businesses, to shift 
employees from profit making endeavors to compliance.
    A 2013 Minneapolis Fed study emphasized paperwork burdens 
and what being forced to hire additional compliance staff means 
for small banks. The study found that hiring two additional 
compliance officers reduced profitability by roughly half a 
percent, and that one-third of the banks studied would become 
unprofitable if forced to hire additional compliance officers.
    For regulatory costs, EPA and the Department of Energy 
alone have added $39 billion in new annual burdens since 2009. 
For employees in fossil fuel power plants, these costs are one 
leading factor to a 28 percent decline in industry employment 
since 2008.
    There are other factors in play but regulation has 
definitely made its mark. According to the most recent 
literature, regulation has a modest but significant impact on 
industry employment.
    In one seminal study, Professor Michael Greenstone examined 
how employment in pollution intensive industries in non-
attainment ozone counties differed from attainment counties. 
The results were dramatic. Non-attainment counties, those with 
more stringent EPA controls, lost 590,000 jobs, $37 billion in 
capital, and $75 billion in output.
    Dr. Richard Morgenstern, whose work is often cited in 
regulatory impact analyses, summarizes the intersection of 
regulation and employment writing, ``there is only limited 
evidence that environmental regulation leads to significant job 
loss.'' Note, he did not say there is evidence environmental 
regulation leads to major job gains.
    The American Action Forum's work found that for every $1 
billion increase in regulations, industry employment declines 
by 3.6 percent.
    More important than a top line number, however, is the 
human element to regulation. Even if a rule leads to a net zero 
impact on aggregate employment but results in thousands of job 
transfers, there still might be individual job losses and 
stagnant wages.
    For instance, research has found job displacement can lead 
to a 15 to 20 percent increase in death rates in the 20 years 
following displacement. This should not be discounted by 
regulators or policymakers.
    Finally, regulatory agencies need to perform more 
employment impact analyses. Rutgers University Professor Stuart 
Shapiro examined a regulatory impact analysis of 56 major rules 
and found that just 11 quantified the rules' impact on 
employment. On rules since 2012 that had discussed the impact 
on employment, the American Action Forum found 22 admitted some 
job losses were possible, including 11 to date in 2015.
    As the Department of Energy once conceded, ``it is possible 
small manufacturers will choose to leave the industry or choose 
to be purchased by or merged with larger market players.''
    Likewise, a Department of Labor rule admitted its 
implications would result in a dead weight loss and dis-employ 
roughly 1,000 workers annually. The combined employment loss 
from the 22 rules, according to agency estimates, could top 
85,000 workers.
    Based on the research from Professors Eric Posner and 
Jonathan Masur, the cost of an individual job displacement is 
$100,000. If we take this 85,000 jobs figure at face value, it 
means $8.5 billion in costs, human costs, a human toll from 
regulation.
    The proposed overtime expansions, the fiduciary rulemaking, 
and redefining the joint employer rule could add to these 
significant totals.
    In conclusion, the general consensus is regulation does 
have an effect on employment, at least at the industry level. 
More research is needed in this field, and agencies, OIRA, and 
independent parties should work to perform more rigorous 
analysis on the intersection of regulation and employment.
    Thank you for your time, and I look forward to answering 
your questions.
    [The statement of Mr. Batkins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Walberg. Thank you. Now, I recognize Mr. Beebe, 
and thank you for being here, taking time away from your 
business to join us and give us your experience.

  TESTIMONY OF RALPH BEEBE, PRESIDENT, HIGHLAND ENGINEERING, 
    INC., HOWELL, MI, TESTIFYING ON BEHALF OF THE NATIONAL 
               FEDERATION OF INDEPENDENT BUSINESS

    Mr. Beebe. My pleasure. Good morning, Chairman Walberg, 
Ranking Member Pocan, and members of the Committee. I am 
pleased to be here on behalf of the National Federation of 
Independent Business. I am one of the owners of Highland 
Engineering, and have been a member of NFIB since 1993. I also 
currently serve on the NFIB Michigan Leadership Council.
    Thank you for holding today's hearing on how the 
administration's regulatory onslaught is affecting workers and 
job creators.
    The current regulatory framework negatively impacts small 
and closely held businesses in several important ways, so I 
appreciate the invitation to be here today to discuss these 
important issues.
    The NFIB is the nation's leading small business advocacy 
organization. As part of representing small business owners, 
NFIB frequently conducts surveys of both the NFIB membership 
and the small business population as a whole.
    Government regulation consistently ranks as one of the 
greatest concerns. In fact, since January 2009, government 
requirements and red tape have been a top three problem for 
small business owners on NFIB's monthly small business surveys.
    In the administration's fall 2015 regulatory agenda 
released on November 18, there are 3,297 federal regulations in 
the pipeline waiting to be proposed, finalized, or implemented. 
About 10 new regulations are finalized every day, according to 
data on Regulations.gov, adding to the volumes of rules with 
which small business owners must comply. This constant 
onslaught of government regulation makes it incredibly 
difficult for me to operate my day-to-day business.
    I would like to spend the rest of my time telling you about 
my personal experience dealing with government regulations. 
Highland Engineering was founded in 1986 and we moved to Howell 
in 1987. We specialize primarily in troop support equipment for 
the U.S. Department of Defense, as well as some other agencies. 
With 45 full-time employees, we are a contractor for all 
branches of the DOD, FEMA, and foreign militaries.
    In addition to our government work, we also serve 
commercial customers in the automation and water treatment 
areas.
    Through our company's nearly 30 year history, I have seen 
the impact of the direct costs of excessive regulations, 
particularly in the past four years. For example, the number of 
clauses in our contracts have increased nearly 50 percent since 
2011. Additionally, reporting requirements have increased to 
the point that they have become overbearing.
    Keeping up with these ever changing regulations is such a 
task that I have had to hire a professional compliance officer, 
who also happens to be my wife, Sally, to work 10 to 20 hours 
per week solely to make sure we are abiding by complex, 
uncertain, and ever changing regulations.
    Each time a new regulation comes out, she has to research 
it, decide if it pertains to us, and if it does pertain to us, 
figure out what we need to do about it.
    The pace of changes in regulations is astounding. In 
October of 2011, the Federal Acquisition Regulation or FAR, was 
on Revision 44. By October 2015, it is now on Revision 84. With 
this current pace of excessive regulation by the 
administration, more and more small businesses will either have 
to divert their monies to hiring compliance personnel, as we 
did, or will simply decide the burden is too great and get away 
from the over regulation by dissolving their businesses.
    Further, the companies still doing business with the 
government are passing on these increased costs to the 
taxpayers instead of being able to use this money to invest in 
the company's development or to hire new employees. We have had 
to focus on understanding and complying with new regulations.
    Further, in my experience with the Department of Labor, I 
have found the agency to be more interested in trying to find 
what we did wrong instead of providing assistance and education 
in understanding new rules.
    My company set up an employee stock ownership plan as a way 
to take care of our employees and provide for their 
retirements. We hired lawyers to make sure we understood the 
process and that we did it right. After the plan was filed with 
DOL, DOL determined that they needed to audit us. After 17 
months of what we thought was nothing more than a phishing 
expedition, they determined that we did everything 100 percent 
correct. Those 17 months cost us a lot of time and money.
    Highland Engineering's business is primarily with 
government agencies, and we have seen firsthand the detrimental 
effects of ever changing and excessive regulations, especially 
as a small business with limited resources, resources that we 
could be using to more fully support our core mission, which is 
supporting the warfighters.
    The current state of government regulation has become a 
confusing and unpredictable challenge for the vast majority of 
small business owners. Government regulations should not hinder 
the ability of small business owners to create or expand their 
business. The current pace of new regulations combined with the 
existing regulatory burden can dictate the business decisions 
an owner must make, whether it means using a compliance 
officer, attempting to expand its business, or hiring new 
employees.
    As Congress examines the current regulatory burden faced by 
small business owners, I would encourage you to keep the 
following goals in mind: number one, agencies should take into 
account a proposed regulation's indirect economic impact on 
small business. Two, agencies should increase compliance 
assistance so small businesses acting in good faith can 
continue to operate without fear of undue penalties, and three, 
DOL and all agencies should be required to conduct SBIR panels 
when considering any new regulation.
    Working toward these goals would create a more stable pro-
growth environment for small businesses.
    Thanks again for having me today, and I will be happy to 
answer any questions.
    [The statement of Mr. Beebe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Walberg. Thank you. Ms. Owens, we welcome you, 
thank you for being here. We now recognize you for five 
minutes.

  TESTIMONY OF CHRISTINE OWENS, EXECUTIVE DIRECTOR, NATIONAL 
            EMPLOYMENT LAW PROJECT, WASHINGTON, D.C.

    Ms. Owens. Thank you very much, Chairman Walberg, Mr. 
Pocan, and members of the subcommittee. I appreciate the 
opportunity to testify today on behalf of my organization, the 
National Employment Law Project, which engages in a number of 
activities designed to promote the interests and rights of low 
wage and unemployed workers.
    The Obama administration has proposed or taken several 
executive regulatory and other agency actions essential to 
workers' ability to earn decent wages, meet responsibilities on 
the job and at home, and work in safe, healthy, and non-
discriminatory workplaces. These actions have been thoughtful, 
informed, fair and balanced, and consistent with legal 
authority and legal responsibilities to further underlying 
workforce policy goals.
    Far from causing harm, they make it more likely that we 
will rebuild the economy on a foundation of good jobs and safe 
and healthy workplaces.
    Regulatory and related action by the Obama administration 
is extremely important. Wages for most workers have fallen over 
most of the last four decades, even as worker productivity 
grew, and the average age and education of the workforce rose. 
The Great Recession exacerbated these trends, particularly for 
low wage workers.
    During the period of limited congressional action on 
workforce policy, administration action is a vital response to 
the wage crisis. It also better aligns workforce policy with 
today's economy and its evolving business and employment 
practices and family needs.
    Several actions update old standards that because they have 
not been adjusted regularly neither meet the needs of today's 
workers nor serve employers effectively.
    Contrary to arguments that workforce regulations are 
burdensome and costly job killers, analyses of regulations over 
a multi-year period find their benefits vastly exceed costs, 
while cost estimates typically fail to consider mitigating 
savings, and actual costs often turn out to be significantly 
lower than estimated.
    Less than three-tenths of 1 percent of employers initiating 
mass layoffs in 2012 said government regulation was their 
layoff reason, affecting only five of every 2,000 laid-off 
employees.
    A 2014 analysis of 10 proposed or final public health and 
safety rules, including OSHA's proposed silica rule, concluded 
they would save 10,000 lives, prevent 300,000 cases of 
occupational illness or injury, and yield a net overall benefit 
of as much as $122 billion. Frankly, 69 months of record 
uninterrupted job growth along with cutting the unemployment 
rate in half is wholly inconsistent with the notion that a 
regulatory onslaught has damaged the economy or cost us jobs.
    In the face of extreme inequality, stagnant and declining 
wages, and inadequate labor markets, the Obama administration 
has acted judiciously and lawfully to help ensure that 
Americans who work for a living will make a decent living from 
work in safe, healthy, and non-discriminatory workplaces.
    I will now briefly describe a couple of these initiatives. 
The Labor Department moved to revitalize the Fair Labor 
Standards Act and strengthen the middle class this July, when 
after a period of substantial outreach and sustained 
deliberation it proposed a rule updating the so-called ``white 
collar exemption'' to the overtime pay requirement.
    Recognizing that the existing poverty level threshold of 
$23,660 is far too low, the Department proposed to lift it to a 
far more realistic level of $50,440. This change will benefit 
as many as 11 million workers and restore overtime protections 
to 44 percent of the white collar workforce. This is still 
below the historic standard, but definitely an improvement.
    The Department also acted importantly and appropriately in 
2013 when 16 years after first listing revision of the silica 
standard on its regulatory agenda, OSHA proposed a new 
protective regulation.
    Disease and deaths from silica exposure are preventable, 
yet more workers died from silicosis and silica related 
diseases in 2013 than from explosions or from being caught in 
or crushed by collapsing materials, running equipment, or 
machinery.
    These as well as other regulations and actions we discussed 
in our written testimony, including extension of minimum wage 
and overtime protections to the home care workforce, are 
important actions within the constitutional and statutory 
authorities of the President, the Labor Department, and the 
EEOC, in response to some of today's workforce challenges and 
crises.
    By improving wages and working conditions for tens of 
millions of workers, the administration's actions will 
strengthen American working families and help achieve a 
healthier and more robust economy in which all who contribute 
to its success have a shot at sharing fairly in its prosperity.
    Thank you. I would welcome any questions.
    [The statement of Ms. Owens follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Walberg. Thank you. Mr. Hammock, welcome, and we 
recognize you now for your five minutes of testimony.

TESTIMONY OF BRADFORD HAMMOCK, SHAREHOLDER AND CO-LEADER OF THE 
WORKPLACE SAFETY AND HEALTH PRACTICE GROUP, JACKSON LEWIS P.C., 
                           RESTON, VA

    Mr. Hammock. Thank you, Mr. Chairman, Congressman Pocan, 
members of the subcommittee. Good morning. I am Brad Hammock. I 
manage the Workplace Safety and Health Practice Group at the 
law firm of Jackson Lewis.
    Before joining Jackson Lewis, I spent 10 years at the 
Department of Labor working on various matters on behalf of 
OSHA. I worked specifically on OSHA's regulatory program, 
including serving as counsel for safety standards for the last 
few years of my tenure there. I am very familiar with OSHA's 
regulatory program having been and worked there and lived 
there.
    Since leaving the Department, I have had the privilege of 
working with countless employers in a variety of industries in 
a compliance assistance capacity, as well as helping them 
navigate OSHA enforcement actions.
    I am pleased to offer my perspective on regulatory burdens 
on employers from my experience of working for OSHA as well as 
representing employers across the country.
    Many employers I work with are feeling the full weight of 
OSHA and fear several new regulatory initiatives set to become 
final rules in 2016. In addition, now more than ever employers 
are facing compliance challenges resulting from the ambiguous 
OSHA guidance in such areas as ergonomics, workplace violence, 
and process safety management.
    The combination of new regulatory requirements and 
aggressive enforcement places significant pressure on 
employers. That is why it is critical that agencies be mindful 
of the cumulative impact of regulations on employers and be 
judicious with promulgating new rules.
    From a regulatory perspective, OSHA is extremely active. 
One of the regulatory actions that my clients raise with me 
with great concern is OSHA's proposed electronic recordkeeping 
rule. As proposed, this rule would amend the agency's 
recordkeeping regulations to add new electronic reporting 
obligations.
    OSHA would require employers with over 250 employees per 
establishment to submit their OSHA 300 Logs to the agency on a 
quarterly basis, and OSHA would in turn post those OSHA 300 
Logs on its website to make the information publicly available.
    There are several problems with this rule, starting with 
the fact that OSHA has not justified any safety and health 
benefits from the proposal. OSHA seems to believe that benefits 
will flow once injury and illness information is made public, 
and customers, employees, and others can make determinations 
about how safe a particular worksite is. This in turn would 
lead employers to make improvements in workplace safety.
    This is wrong at several levels. OSHA should know that the 
occurrence of an injury in and of itself is not a complete or 
fair indication of an employer's safety and health program and 
its effectiveness. To suggest that individuals, whether it be 
researchers, workers, other employers, customers, or unions 
should make conclusions about the safety and health of a 
workplace based on just the public report of an OSHA 300 Log, a 
lagging as opposed to a leading indicator, is misguided.
    As you can imagine, employers are very concerned with this 
proposal, that may unfairly tarnish a worksite as unsafe, 
having a negative impact on the employer of the site, 
regardless of the true effectiveness of the employer's safety 
and health program.
    Another significant regulatory initiative that will have 
major impacts on many employers is OSHA's proposed rule 
regulating crystalline silica. OSHA has been working on a 
respirable crystalline silica rule for decades.
    To be clear, crystalline silica at certain exposure levels 
has been shown to cause silicosis, a potentially fatal lung 
disease. Over the course of the last several decades, however, 
the incidences of silicosis have been steadily and rapidly 
declining, according to the Centers for Disease Control.
    It is with this backdrop that OSHA's proposal was issued. 
For many employers, particularly small employers, the rule will 
be highly burdensome. Take the construction industry, for 
example. Not only is OSHA proposing to significantly reduce the 
permissible exposure limit for silica in construction, it is 
proposing other extensive requirements, including prohibitions 
in certain instances on work practices such as the use of 
compressed air, dry sweeping, and dry brushing.
    Some stakeholders have estimated that the cost of the rule 
for construction alone will be approximately $4.9 billion a 
year.
    There are other rules as well in the most recent regulatory 
agenda, over 30 regulatory initiatives are proposed by OSHA. 
This comprises almost 45 percent of the regulatory burden of 
the Department of Labor.
    Aside from the new regulatory requirements discussed, in 
the last several years many employers have been challenged by 
OSHA enforcement initiatives in areas where the agency has 
provided little compliance clarity.
    I just want to highlight one here today, ergonomics. Over 
the last few years, OSHA has been active in attempting to 
utilize the general duty clause to cite employers for failing 
to take certain actions to protect employees from 
musculoskeletal disorders.
    The problem with this for many employers is that OSHA has 
provided little guidance on what its expectations are for 
compliance with respect to ergonomics. Thus, many employers are 
following OSHA's own ergonomics guidelines for a particular 
industry, but they still get cited because OSHA wants them to 
actually do more undefined with respect to ergonomics.
    In conclusion, I want to leave one final thought with the 
Committee. All these burdens placed on employers may actually 
take resources away from workplace safety and health. While 
compliance is important to employers, so is the day to day job 
of working to prevent injuries.
    When OSHA proposes a rule or embarks on an enforcement 
initiative, it must truly analyze how necessary the rule is, 
the benefits of the rule, and the adverse consequences of it.
    Thank you, Mr. Chairman.
    [The statement of Mr. Hammock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Walberg. Thank you. Appreciate the testimony of 
the witnesses. Now, we turn to the panel for questions. I 
recognize the gentleman from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Mr. Chairman, thank you so much. Thank you to 
the witnesses for being here, lending your experience and 
expertise to a very important issue.
    Mr. Batkins, I work hard every day to try to boost earnings 
of low income workers as co-chair of the Career and Technical 
Education Caucus. I believe that is the best way, most 
effective way to truly do that, through the provisions of 
opportunities for job training to get the skills/competencies.
    This Committee, this whole Committee, Education and the 
Workforce Committee, has done an outstanding job with 
legislation. We have one that has crossed the finish line a 
year ago or so, the Workforce Innovation Opportunity Act, which 
is about job training. I think within the days to come, the 
ESSA, which really clears for the secondary levels a pathway 
for career and technical education training to have a better 
role within our schools.
    The administration, on the other hand, has kind of a 
different opinion. As you know, in March 2014, the President 
issued an Executive Order directing Secretary of Labor Perez to 
update the so-called ``white collar regulations'' that 
establish overtime requirements for executive, administrative, 
and professional employees.
    This proposed rule seeks to extend overtime pay in a broad 
fashion, and according to the administration, will boost the 
wages of millions of workers that are exempt from current 
regulations.
    The Department of Labor estimates that average annualized 
direct employer costs will total up to $253 million per year, 
depending on the updating methodology.
    Is this an effective tool to boost the earnings of low 
income workers? In other words, will this regulation have its 
intended effect?
    Mr. Batkins. Well, again, the effect of regulation on 
employment is complicated, but one thing it will definitely do, 
and this is something Mr. Beebe mentioned, is it will impose 
millions of dollars in costs, and hundreds of thousands of 
paperwork hours.
    Now, someone, whether it is someone's wife or compliance 
officer, has to eventually comply with those regulatory 
compliance. Those hours mean something. They translate into 
compliance officer's time from profit making tasks devoted 
instead to regulatory compliance.
    The overtime rule in conjunction with some other Department 
of Labor rules, I think if you add up the regulatory agenda, 
would be something close to $7 billion in aggregate costs.
    It is difficult to say that kind of imposition will not 
have at least some effect on employment. It might take the form 
of lower labor force participation rates or it may take the 
form of lower wages. I certainly think you will see some 
impact.
    Mr. Thompson. Thank you. Mr. Beebe, I spent a lot of time 
visiting small businesses, the backbone of our economy, and 
talking with them. I have had numerous instances where I have 
gone and visited them at their request because of regulation 
concerns they have had, specifically where they have had an 
anonymous complaint placed by OSHA. They come in, they clear 
the complaint, but once they are in the door, they just nitpick 
and tear things apart.
    That was not the disturbing part for me. It was the 
intimidation that OSHA did. These are businesses--one specific 
example, the employer said okay, what suggestion do you have, 
how do I correct this, so I can appeal it, and was told by 
OSHA, or the OSHA individual, well, you do not want to do that 
because if you do, the consequences could be greater.
    It really was intimidation or fear of retribution.
    A recent survey from the National Association of 
Manufacturers notes, ``small manufacturers pay more than three 
times as much as the average U.S. business.'' Can you explain 
how small business employment is negatively affected by 
regulation, and how do regulations impact larger companies 
differently?
    Mr. Beebe. Well, I think it all comes down to when you talk 
about impacts, it is the percentage. If I only have 40 people 
and I have to hire a compliance officer, that is obviously a 
large percentage of my wages versus a company that has 5,000 
employees and two compliance officers.
    I think the burden on small businesses by definition is 
much more impactful than on the large businesses.
    Mr. Thompson. Very good. Thank you, Mr. Chairman. Let me 
just say in those situations where I found that, I found it 
helpful to call the local OSHA office and ask for a face to 
face meeting with somebody from that department to explain 
their actions. That has been somewhat effective, providing some 
good oversight, but it is unfortunate those actions are 
necessary where these businesses, small businesses in 
particular, feel intimidated and fear retribution.
    Chairman Walberg. I thank the gentleman. The gentleman's 
time has expired. I recognize the Ranking Member instead, I 
guess I would say, at this point in time, Mr. Pocan.
    Mr. Pocan. Thank you, Mr. Chairman. I know everyone says it 
is a new day here in Congress. Sometimes I feel like it is 
Groundhog Day. I feel like every month we have one of these 
hearings or sometimes two of these hearings. I was in line at 
the White House for a holiday party behind someone from the 
Department of Labor, I am like hey, I have not seen you in 
about a month.
    It is good to be back because I think it allows us to offer 
maybe some of the facts that are out there. I think, Ms. Owens, 
you mentioned specifically, according to the Bureau of Labor 
Statistics, a study on the percent of layoffs from regulation 
is something like 0.1 to 0.4 percent over about a seven year 
period. It is extremely low. Yet, the percentage of jobs lost 
due to lack of demand is really the significant barrier.
    I am a small business person for 28 years. I know this from 
practical experience as well. That is the reality. That is the 
facts that are out there.
    I know we talk about the costs that are involved. Again, as 
much as I think sometimes we inflate the costs, when I read 
some of these reports about what something is going to cost. 
When you actually look back at it, according to the Office of 
Management and Budget, they said in fiscal year 2014, for 
example, executive agency major rules delivered the benefits of 
$22.8 billion annually while the costs were 3 to $4 billion 
annually. The benefit is definitely exceeding any costs.
    In fact, I would argue it is kind of like that credit card 
commercial, the cost of this, the cost of this, the cost of 
coming home to your child at the end of the day without an 
injury, priceless.
    Again, your statistics showed that is what happens with 
these regulations. Since this is the Education and Workforce 
Protections Committee as opposed to Chamber protections, let me 
ask you a question, Ms. Owens, specifically regarding something 
I just did.
    I recently followed a worker who works as a caregiver. They 
have been doing this for 23 years, and are making now $11.50 a 
hour, after 23 years of working as a caregiver. We helped 
physically move the body of someone, we did cooking and 
cleaning, we did all this stuff, non-stop busy, taking care of 
the pills very precisely, cutting what the person has to have.
    Look at the work involved, and all too often we find these 
folks are not getting the proper pay, the proper overtime, 
especially when they do overnight shifts, et cetera.
    Can you just talk a little bit about that, just one rule, 
for example, since I just did that Thanksgiving week, it is 
fresh in my mind. This is someone who is fighting for $15 
minimum wage in an union. Can you just talk about that?
    Ms. Owens. Sure. I have had a similar experience, although 
I seem too old for this to be true, the reality is I am one of 
the sandwich generation, and I had a child I was raising. At 
the same time, my mother had advanced dementia. We had home 
care workers. She always wanted to be in the home, and we 
wanted her to be, so we had home care workers.
    We paid good wages, and we reported their earnings and 
complied with the law. I would never have done anything 
differently for my mother. I have to say caring for my mother 
was much harder than caring for my daughter, because my 
daughter grew up, and my mother just got worse.
    The reality is this is a vital job. None of us, I dare say, 
could do it very well. It requires patience. It requires 
compassion. It requires a certain level of skill. It requires a 
certain level of strength. It is a job that has changed 
dramatically since the 1970s when the Labor Department first 
exempted the job from minimum wage and overtime protections.
    It now is a profession. It is one of the fastest growing 
jobs in our economy, and one of the two jobs that will add the 
most net jobs over the next 10 jobs.
    Here is an irony. If these people, most of whom are women 
and women of color and many are immigrant women, if these women 
were working in nursing homes or public institutions, they 
would get minimum wage and overtime pay. Because they have 
worked in the home, which actually is better care and less 
costly care, and what all of us want for our loved ones, they 
have not been entitled to minimum wage and overtime pay. That 
is just wrong.
    The Labor Department's extension of these protections, 
which the D.C. Circuit has upheld, is not only fully consistent 
with the Department's statutory authority, it is good public 
policy that we all ought to applaud.
    Mr. Pocan. It is interesting. One of the things a person 
mentioned is, you know, people who make $174,000 a year trying 
to tell them they are making too much at $11.50 an hour after 
23 years of being in that profession.
    I think the only thing I would say in closing, Mr. 
Chairman, is I know as a small business owner I often get 
private sector businesses I deal with that make me jump through 
hoops to do various things, and if I want to do business with 
that company, I do that.
    To say that somehow if you have the privilege of being able 
to do business with the Federal Government but you do not want 
to follow any of the regulations, I did the exact thing with 
private sector businesses, it is part of what is called doing 
business, and if people do not like that, there are other 
businesses out there, but I love the business that I have been 
in for 28 years, and that is something I try to comply with.
    Thank you, Mr. Chairman.
    Chairman Walberg. I thank the gentleman. I recognize now 
the gentlelady from New York, Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. I wanted to start 
off with a broad question to Mr. Batkins. Do you believe there 
is a connection between the $100 billion in additional annual 
regulatory costs imposed by this administration and the 
stagnation facing this nation's wages?
    Mr. Batkins. There certainly is a connection. Again, I 
think when you look at sort of the aggregates, regulations are 
often hidden. They are not on our tax bill like FICA, we do not 
see that in terms of sales tax.
    There is a lot of evidence looking at the impact of 
regulation on employment. There was a study done looking at the 
Clean Air Act. It found sort of marginal impacts on employment, 
but close to $9 billion in foregone wage earnings as a result 
of the regulations. A lot of that was through a lower labor 
force participation rate and lower wages down the line.
    I do not think you can see $100 billion and say that will 
not have an impact somewhere down the line. I think a lot of 
this sort of operates under a false premise. We say well, the 
unemployment rate is low, regulations cannot possibly be having 
an effect.
    No one has ever said that a single regulation would cause 
the unemployment rate to go up to 10 percent. These are mostly 
industry specific examples. If you look at certain heavily 
regulated industries, there certainly are impacts on employment 
and wages.
    To discount it and say the unemployment rate is low is sort 
of disingenuous.
    Ms. Stefanik. My follow up question is last month I chaired 
a hearing hosted by the Republican Policy Committee on 
Millennials in the Workforce. I am chairing the Millennial Task 
Force.
    One of the themes is the importance of this empowerment 
economy, so companies like Uber, Lyft, Airbnb, that provide 
greater flexibility.
    When I visit college campuses in my district, one of the 
professions that I hear most often from students is they want 
to be entrepreneurs, but witness after witness at these 
millennial hearings raised the challenges of regulatory 
overreach as to starting their business or growing their 
careers.
    Can you identify certain pending DOL regulations that you 
believe pose the greatest threat to this empowerment economy?
    Mr. Batkins. Some of the regulations that I have mentioned 
just from DOL specifically, the joint employer rule is one, the 
overtime rule, fiduciary rule. Those are sort of the big DOL 
regulations coming down the road.
    I think when you look at regulatory costs generally, 
especially with small start up's, these costs fall 
disproportionately on small firms.
    If you are just one or two people starting up a business 
and you have sort of these fixed regulatory costs, as they tend 
to be, you have to spread those regulatory costs over a much 
smaller pool of assets, and in some cases, just your own money, 
and you do not have a team of compliance officers or a team of 
lawyers that larger competitors might have.
    If you are just starting out in this new economy and you 
sort of have a fixed base of regulatory costs, it is going to 
be tremendously difficult without a lot of capital to get 
things moving.
    Ms. Stefanik. Thank you. Mr. Beebe, I grew up in my 
family's small business, which is a plywood wholesale company. 
We have less than 20 employees. One of our greatest challenges 
is dealing with regulations.
    Since you are a small business owner yourself, I wanted to 
ask you if there are specific instances where regulations have 
either forced you to delay important projects or have not 
allowed you to hire additional employees.
    Mr. Beebe. A number of times. The regulatory burden, it has 
directly affected our supplier base. That is one key issue to 
us. For most of our regulations, we are required as a federal 
contractor to slow those down.
    A business like yours, plywood supplier, all of a sudden is 
faced with all these DOL regulations, and lots of times they 
will say I am not going to supply you with plywood, it is not 
worth it. That is a direct and obvious thing.
    The wages for my wife. I would much rather hire a welder. 
That is just the costs we have to face.
    Ms. Stefanik. Thank you very much. I yield back.
    Chairman Walberg. I thank the gentlelady. Now, I recognize 
the gentleman from California, Mr. DeSaulnier.
    Mr. Desaulnier. Thank you, Mr. Chairman. I want to thank 
all the witnesses, and like Mr. Pocan, I think sometimes as 
somebody who opened my first business--I am going to date 
myself--in the 1970s, and I did it with my wife, Mr. Beebe. 
Although we are still very good friends and we are former's, I 
am not sure I would ever suggest that I would prefer a welder 
or another cook as opposed to having her on the payroll, but 
there were moments.
    I wanted to direct a question to you because you brought 
something up which I often think as a former small business 
person is an appropriate approach. You mentioned a small 
business acting in good faith should have some consideration 
for that.
    The opposite of that always bothered me as well, where I 
knew I was competing against companies that were not complying 
with OSHA requirements or were not paying their employees what 
they were supposed to pay or wage theft.
    I wonder if you have some comment on that. I understand we 
all want the right kind of regulatory oversight to allow you to 
thrive, but on the other hand, in the absence of it in my 
estimation, being effective, you get frustrated when you do 
comply that you are competing against companies that flout 
those rules mostly because, in my experience, there were not 
enough resources for government agencies actually to enforce 
the regulations, or your competitor just did not have a very 
ethical business model.
    Mr. Beebe. I guess I cannot speak for my competitors. I can 
speak for the business--
    Mr. Desaulnier. I asked you speaking for yourself.
    Mr. Beebe. I personally feel that most small business 
owners are very ethical and try their best to do it. I guess I 
do not agree that I have competition from others that are not 
following the rules. That is not an issue.
    Mr. Desaulnier. Maybe it was more frequent in the 
restaurant business. I do not disagree with you. Most of them 
are, but the problem is the ones that do not comply--I am 
showing my age--seem to be growing. Their inability for 
whatever reason always bothered me.
    Ms. Owens, in an environment, and we have talked a little 
bit about this, where 66 percent of the American workforce 
lives paycheck to paycheck, and while I think it is important 
we talk about unemployment rates, to have the ability to 
actually live a life where you can afford to pay your housing 
costs and actually have disposable income.
    In that context, two questions. I wonder if you will just 
respond in terms of regulatory, and also in the same spirit as 
I mentioned to Mr. Beebe, the cost/benefit of the lack of 
regulations, do we analyze that when we do have sort of a drive 
to the bottom in some instances.
    Those two things, sort of the macro, in this environment, 
of all things, you would think you would be working to make 
sure that workers are protected and their wages are actually 
increased given that they--of all the benefits in the last 30 
years, in the economy, including recovery, most of that has 
gone to people who are heavily invested as opposed to people 
who are living on wages.
    Ms. Owens. I think that is absolutely right. I guess I 
would like to start by also picking up on Ms. Stefanik's 
question. The reality is wages have been declining for the last 
40 years. There was some exacerbation of that during the 
recession and recovery particularly for workers at the bottom, 
but that was not because of regulation, it was because it was 
the worse economy we have had since the 1930s.
    Even employers that were doing well were taking advantage 
of that economy to bargain hard for concessions from their 
employees in unionized places. We had many more college 
students who could only get jobs that were low wage jobs.
    There really was a race to the bottom in terms of driving 
down wages. Certainly, our experience is that in the low wage 
sector, the phenomenon you referenced is very real, that 
companies and contractors put wages in competition, and the way 
they compete for contracts is by driving down the wages of 
their workers.
    These are not workers who have much bargaining power, they 
are not usually Union members. The only protection they have is 
from law or regulation. That is precisely why in this 
environment it is so important that the administration has 
acted appropriately with respect to regulation because frankly, 
nothing else was cutting it for workers, and they needed 
administrative action to raise their wages, to be able to step 
out of the working class into the middle class, and for middle 
class families to feel secure that through their work, they 
would have economic security and economic opportunity.
    Mr. Desaulnier. I appreciate it. We have an environment 
where American workers are more productive than ever, 
particularly because of the entrance of women in the workforce, 
like Mr. Beebe's wife, but at the same time they have not 
shared in the wealth created by that productivity.
    Ms. Owens. That is absolutely right.
    Mr. Desaulnier. Thank you, Mr. Chairman.
    Chairman Walberg. I thank the gentleman. I recognize myself 
now for my five minutes of questioning.
    Mr. Beebe, the President's ``Fair Pay and Safe Workplaces'' 
Executive Order 13673 creates a new costly paperwork burden on 
the existing federal procurement system by placing extensive 
new reporting requirements on Federal contractors.
    More appropriately, this Executive Order is referred to as 
``blacklisting,'' an administrative compliance nightmare that 
this will potentially put in place. It will place thousands of 
federal contracts in jeopardy, drastically reduce the number of 
small businesses competing for federal contracts, like yours, 
and make procurement of goods and services more expensive for 
the government and the taxpayer.
    In her statement, Ms. Owens stated that the Executive Order 
would only apply to, and I quote, ``to a scant 5 percent of 
federal contracts,'' and ``The semi-annual compliance process 
will be quite simple.''
    Can you explain from your experience and your perspective 
the flaw behind that logic?
    Mr. Beebe. Yes. Currently, under our defense contracts, we 
are required to certify that we are not suspended or debarred 
or have tax liens. There is a current shopping list of about 
eight or 10 items we have to certify that we are not on to even 
be eligible to bid for jobs.
    The way I understand it, the blacklist drastically expands 
that, and again, more than doubles the number of things that 
are looked at.
    Chairman Walberg. I would assume it would be very 
burdensome and cumbersome in the process, especially if you are 
working with any subcontractors as well?
    Mr. Beebe. Very much so.
    Chairman Walberg. Would you agree that this regulation 
protects all American workers?
    Mr. Beebe. No, I would not agree with that. I believe that 
it would just do nothing more than expand the reporting 
requirements and actually hurt in the end because like you were 
pointing out, a number of businesses would just not be eligible 
all of a sudden.
    Chairman Walberg. Who are trying to be honest and 
upstanding.
    Mr. Beebe. Yes.
    Chairman Walberg. Thank you. Mr. Hammock, OSHA's economic 
estimate for a silica standard is dramatically different, to 
say the least, than the estimates of almost every industry 
providing economic data to the regulations docket.
    Is there any way in your mind to explain how the agency 
arrived at such different cost estimates?
    Mr. Hammock. Thank you, Mr. Chairman. It is hard to say 
specifically why the estimates are so different except I think 
on a number of different levels, OSHA has not considered all 
the different inputs that go into what a business has to do to 
comply with a rule.
    OSHA in good faith, and I know the people do their best, 
try to quantify how much a regulation is going to cost, but in 
the end, they have to make certain assumptions. Ultimately, I 
think they do not quite understand how a business, a small 
business, large business, actually internalizes it and has to 
comply with a particular regulation.
    As a result, when you look at all the different assumptions 
that OSHA makes in coming up with an economic analysis, each of 
those assumptions are on the conservative side, and when they 
actually get implemented, you do find that the costs are 
significantly higher when you consult with people like Mr. 
Beebe who have to ultimately implement a particular regulation.
    Chairman Walberg. I appreciate that. Mr. Batkins, in my 47 
seconds remaining here, some statements have been made 
specifically in reference to the regulations dealing with home 
care workers. Talk to us about the impact of these regulations.
    Michigan has requirements that labor is attempting to put 
in. We are losing home care workers because of it. Talk to us 
why.
    Mr. Batkins. Well, the Department of Labor--actually, this 
is one of the few instances where they did forecast potential 
job losses as a result of the regulation, and it is one of the 
few regulations we have come across, and we have come across 
thousands since 2006, where they admitted there would be a dead 
weight loss as a result of the regulation, and over the course 
of roughly 10 years could dis-employ 1,000 workers annually.
    There are very few regulations that admit that impact. It 
would be interesting to go back five to 10 years from now and 
actually see the retrospective impact of the rule, but up 
front, if you are projecting 1,000 workers annually being dis-
employed, that is sort of the other side of the coin when we 
compare it to higher wages.
    Chairman Walberg. Thank you. I know that was our impact 
with care for my mother, similar, Ms. Owens. It is a challenge. 
I applaud you for doing what you did. It is the right thing to 
do, but a difficult process. To find the caregivers that were 
consistent, because of what Michigan has in place with the 
overtime rules, made it difficult for mom to have someone she 
recognized to some degree every day.
    I now recognize for five minutes of questioning, Mr. 
Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. I appreciate getting 
waived in today, and it is good to be back on the subcommittee. 
Thank you to the witnesses for your testimony.
    Mr. Batkins, you sort of raised this sort of morbidity 
issue of the effect of unemployment caused by regulations that 
result in people's early life passing away. It is an 
interesting concept.
    Normally, in this Committee, we have talked about morbidity 
in terms of the lack of regulation. Again, as someone who is in 
year nine - Upper Branch, where 29 coal miners lost their 
lives. We obviously just had a jury verdict in West Virginia 
holding the employer responsible. There is no question in my 
mind that the failure of Congress to update MSHA's regulations 
could have prevented that horrendous tragedy.
    Deepwater Horizon, where 11 workers lost their lives 
because of just incredibly shoddy oversight and regulation of 
the deep water drilling.
    I represent New London, Connecticut, home of the Coast 
Guard Academy, seeing the assets of the Coast Guard having to 
get pulled out of Homeland Security and repositioned down at 
the Gulf of Mexico to deal with the mess that was created there 
by poor regulation.
    In Middletown, Connecticut, we had a power plant explosion 
where again the failure to update our regulations in terms of 
cleaning the piping at the plant there, which even private 
sector folks like Siemens had already said was woefully out of 
date. We had seven workers who lost their lives, one of them 
was a very good friend of mine. I still talk to his widow on a 
frequent basis.
    There is no question that we live in a democracy and it is 
important to raise any issue here, but frankly there needs to 
be a balance.
    If we are going to talk about morbidity and the effect of 
regulations, we have to recognize that workplace fatalities is 
a reality of life, and we are not doing a very good job right 
now in terms of bolstering really common sense updates that 
even in the private sector we have been warned is going to 
cause problems.
    Ms. Owens, I do not know if you want to comment on that.
    Ms. Owens. I would. Thank you very much. You know, it is 
pretty stunning that still today 13 American workers are killed 
on the job every single day. That is amazing. I thought the 
jury verdict in the Massey case was great, but the maximum 
penalty he will get is one year in prison, if he gets that.
    There is no way to replace the lives lost through dirty, 
dangerous, unsafe working conditions. My written testimony 
cites a study that was done by researchers at Berkeley and 
Harvard that actually looked at what the injury rate was and 
what employer costs were following OSHA inspections that found 
that employers were following standards, and that study found 
that injury rates were lower, employer costs were lower when 
employers were following standards.
    There is no question that there is a beneficial impact in 
terms of lives saved. The silica rule is estimated, if it is 
finalized in its proposed form, to save 700 lives a year. We 
cannot put a price tag on that. That is of incomparable value, 
and that is why we need to update these regulations.
    Mr. Courtney. Thank you. Mr. Beebe, again, I represent 
Eastern Connecticut, which is the home of Electric Boat. We 
build the Virginia-class submarines there and deal with 
thousands of suppliers all across the country. Thank you for 
the work you do to protect the warfighters who are out there.
    Again, when we talk about that critical work, protecting 
lives is also part of it. A supplier who sent elbow piping to 
the Virginia-class program did bad welds, so right now the Navy 
is in the process of pulling out piping, which delays 
deployment of attack subs that we need, particularly in South 
China Sea right now.
    We are talking about vessels that operate in an environment 
that does not sustain human life. There is no margin for error 
for sailors out there in terms of doing that.
    Frankly, it is important for our military branches to 
really screen and watch what is coming into the depots, what is 
coming into the shipyards, what is coming into the airfields, 
because as I said, there is no margin for error.
    Cyber is the other burgeoning area for small suppliers. It 
is a very difficult problem, I think you would acknowledge 
that, because we have the bad guys out there that are not just 
looking at the prime contractors, they are going down deeper 
into the supply chain to try to penetrate our national defense 
by trying to probe weaknesses with the small guys, who again 
are doing everything right.
    We need new regulations, frankly, in terms of creating 
hardening defenses for our national defense on all these 
platforms that we depend on for our national defense.
    I think people really have to get balanced here in terms of 
the discussion, both in terms of workplace fatalities but also 
the fact that there is a real public interest in terms of 
making sure the stuff that the government is buying from people 
is actually of high quality.
    With that, I will yield back. Thank you, Mr. Chairman.
    Chairman Walberg. Thank you, Mr. Courtney. I now recognize 
the gentleman from California, Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman. I am glad to join the 
subcommittee this morning as we review the Department of 
Labor's regulatory agenda to promote shared prosperity and help 
hard working Americans.
    It is past time for the Department to update the Fair Labor 
Standards Act's exemption for overtime pay. When enacted, the 
intent of the white collar exemption was to exempt those with 
sufficient power in the labor market who are able to advocate 
for better wages and hours for themselves. That is clearly not 
the case today.
    In 1975, more than 60 percent of salaried workers were 
eligible for overtime. Now, only 8 percent of workers are 
eligible.
    The $23,000 threshold is outdated and below the poverty 
level for a family of four. Americans are working longer hours 
and are more productive, yet their wages are largely flat. 
Updating the overtime exemption will help millions of workers 
make ends meet and give an added boost to our economy.
    My first question is for Ms. Owens. Ms. Owens, there has 
been a lot of discussion about the proposed overtime 
regulation's impact on job creation. I have been able to come 
and hear some of that from your fellow panelists.
    The Department has updated the salary level seven times 
since the Fair Labor Standards Act became law in 1938. Can you 
talk generally about how industry has complied with these 
adjustments? Is there a history of significant job loss 
attendant to these regulations?
    You mentioned a National Retail Federation report--I will 
stop there. Go ahead.
    Ms. Owens. Thank you, Mr. Takano. I have been doing work in 
this field for 30 some odd years, and the reality is every 
single time a piece of legislation is introduced or a 
regulation is proposed, the response from industry is that it 
is going to kill jobs, it is going to lead to exorbitant costs, 
it is going to depress wages. That was the response in 1964 
when--I was not around then--when the Civil Rights Act 
employment protections were extended to women and people of 
color. The 1963 Equal Pay Act. The Pregnancy Discrimination Act 
of 1978.
    The reality is these doomsday prophecies just have not come 
true. It is true that when other things are going on in the 
economy that are depressing consumption, that has an impact on 
jobs, and that is what happened during the great recession and 
the slow recovery.
    The reality is we have not seen significant job loss 
associated with updating basic standards like the overtime 
standards. I am glad you pointed out how infrequently that has 
happened over the past 70 some odd years. It is one of the 
reasons that overtime protections used to cover more than 60 
percent of the white collar workforce, and today, only cover 8 
percent. That just makes no sense at all.
    Mr. Takano. You mentioned a National Retail Federation 
report about job creation in your written testimony. Can you 
just elaborate on that a little?
    Ms. Owens. Sure. They did a report that was certainly not 
supportive of the overtime regulations, but I do not remember 
the specific data right now, they analyzed what they thought 
some of the impacts would be. Some of the impacts--they said it 
is not true that everyone will get higher wages because the 
overtime threshold is increased.
    That means a lot of people who are being forced to work 
overtime hours for less than $24,000 a year will no longer be 
required to work unpaid overtime. They will have more time with 
their families, more time to take a second job if that is what 
they want, more time to go back to school, whatever.
    It is not the case that everybody affected will necessarily 
get a pay increase, but fewer people will be working longer 
hours for no pay at all, and one of the things the National 
Retail Federation estimated is that something north of 100,000 
jobs are likely to be created because employers will find that 
it is more cost effective to hire some additional workers than 
to pay overtime to existing workers. That is also okay.
    That is the purpose of the overtime law, one of the 
fundamental purposes, to spread work around. If it works that 
way, that is what it is supposed to do.
    Mr. Takano. It is really a matter of fairness to the worker 
who is earning a low income who may be classified to the 
advantage of the employer as a manager, a manager who is 
earning a relatively low salary, and because of that 
classification, they are having to work extra hours.
    They now have more time with their family, but that 
employer has to make a decision, a fair decision, the right 
decision, to hire a second person, give the original employee 
time with their family, and in fact, the regulation can have 
the effect of creating jobs.
    Ms. Owens. Exactly.
    Chairman Walberg. I thank the gentleman. His time has 
expired. I want to thank the panel for your testimony as well 
as your responses to our Committee and the questions we have 
asked. I now recognize the Ranking Member for his closing 
statement.
    Mr. Pocan. Thank you, Mr. Chairman, and thank you to our 
witnesses. I think our conversation today has been interesting. 
That said, I think we have had a very Washington conversation 
aimed at a very Washington audience.
    For the vast majority of our constituents who may be 
watching, this hearing has reinforced some of their bad 
feelings perhaps about Congress, and no one here today has told 
our constituents what this hearing is likely really about.
    The congressional leadership strategy is simple, although 
it is not necessarily obvious if you are not paying close 
attention, shut down the appropriations process, bog down 
Congress, and stuff an end of the year package with gifts for 
special interests. That is probably more of what the hearing is 
about today.
    Referring to rules and regulations as an ``onslaught,'' as 
many of our witnesses and colleagues on the other side of the 
aisle did today, is part and parcel of the rhetoric that the 
other side deems as necessary to accomplish the broader goal of 
filling the omnibus appropriations bill with Christmas gifts 
from big businesses' wish lists.
    They say they are worried that this onslaught will hamper 
job growth and lead to mass unemployment. We have already seen 
today less than three-tenths of 1 percent of workers who lost 
their jobs in mass layoffs during the early years of the Obama 
administration was due to government regulations or 
intervention. This rate is unchanged from the Bush 
administration, according to data from the Bureau of Labor 
Statistics.
    All these rules and regulations referenced today have one 
thing in common, they help hard working middle class Americans 
by ensuring workers are afforded the dignity under the law that 
they unquestionably deserve.
    There is no doubt that ensuring worker safety, paying a 
living wage, strengthening the average American's voice in the 
workplace, and ensuring the Federal Government contracts with 
responsible players come at a cost. We can debate that cost. I 
tend to think the other side exaggerates it and I think the 
data backs me up. I also tend to think that maintaining safe 
workplaces and protecting workers' voices are worth that cost.
    Earlier I referenced big businesses' wish list. We talked 
about the things on their list today. Middle class Americans 
are not sitting around saying you know, the income threshold 
for overtime as proposed by the Obama administration is far too 
high.
    They are not doing so because middle class families are 
focused on finding affordable day care for their children and 
finding good, safe public schools for those who are over that 
age. They are focused on other things that are important to 
them.
    One thing they are not doing is saying that Americans do 
not deserve a raise, as some are saying on the other side of 
the aisle, as they criticize the proposed overtime rule and 
attempt to block it in the omnibus.
    The raise came as a result of the Department of Labor 
updating a regulation that in the past has been routinely 
updated by both Democratic and Republican administrations 
instead of an act of Congress.
    I want to reiterate that I have owned my own small business 
for 28 years. I understand the challenges small business owners 
face. I say this because it is often interpreted that the 
Chamber of Commerce and other groups speak for all businesses. 
This could not be further from the truth. Most of the things on 
their wish lists do not affect the majority of small businesses 
that operate in this country.
    As is often the case, we have been given a false choice. If 
you are for an onslaught of regulations, or what I would call 
strong workers' rights and sensible workers' protections, then 
you are against economic growth. If you are for economic 
growth, then you cannot be for increasing worker protections 
under the law.
    Nowhere do we mention ``shared growth.'' Nowhere do we 
mention how workers are the only ones who have not been paid 
for increased productivity over the last 30 years.
    When we hold a hearing to debate big businesses' Christmas 
list for the omnibus, we need to make sure that we are being 
very clear exactly what this Christmas wish list is.
    Before I came to Congress, people around here used to refer 
to special interest projects requested by lawmakers as 
``earmarks.'' These limitations or riders big business has 
requested of the 114th Congress are ``earmarks.''
    As we sit here and debate the Chamber's wish list, let's 
call it what it is, a list of earmarks, and let's talk about 
who gets what. In the old days, an earmark might be used to pay 
for a handicap access ramp at a local library in a member's 
district. Today's earmarks go to constituencies with far more 
resources than your local library.
    As we continue to debate big businesses' list, I ask all 
Members of Congress to have their constituents check it twice. 
Surely, we can come together to advance policies that can 
benefit the American people in the manner other than asking 
middle class Americans to stand outside in the rain and wait 
for their fair share to trickle down as they have been doing 
far too long.
    Thank you, Mr. Chairman.
    Chairman Walberg. I thank the gentleman. My perspective is 
a little bit different. This hearing was meant to benefit both 
sides or all sides of the equation.
    There is no one on either side that want to see employees 
hurt or wages held down. We want to see expanded living wages. 
We want people in jobs that are their sweet spots. We want them 
to go in each day excited about their work or the opportunity 
to expand their work future.
    Just like some of those we had in front of us testifying in 
recent hearings, who started out on a grill, and ended up 
running the company, multiple companies. The resume was built. 
The time was there. Sure, there were decisions that were made 
that had sacrifices for future award, opportunities for 
building resumes. It was based up on the fact of reality that 
choices were made, and with the responsibility also came the 
benefit.
    We certainly understand that 1938 law, the Fair Labor 
Standards Act, is not fit for the present. We need to see some 
change to expand the opportunity for flexibility in the 
workplace.
    However, the Department of Labor and what they have 
proposed does not expand flexibility. It tightens the thumb 
screws down and takes away that flexibility for people to 
determine how they work.
    We have heard in recent testimony from Uber that the 
choices that people are making now are not necessarily for 
remuneration but for the flexibility to have the opportunity 
for what makes them tick and the opportunity to have a time 
frame in place that better fits their needs.
    Look at actual case experiences relative to regulations. 
You see the costs that CBO puts out, the cost of loss of jobs 
coming from the regulatory climate, from ObamaCare, the 
Affordable Care Act, which has proven not to be affordable, and 
not truly the care for more uninsured. That is regulation that 
is hurting.
    If we saw the Department of Labor Wage and Hour Division 
looking at an expansion of wages for minimum wage that hit the 
targets that we have looked at in the past, that we have seen 
going up over $50,000, coming in under that, taking the 
exemption away of overtime, New York and San Francisco do not 
even fit in that area.
    If we had realistic regulation building that took that in 
place, that would be one thing. We do not see that.
    When I go back to the simple issue of human care, home care 
for people who need it, and I see the outcome of what is taking 
place in Michigan, home care providers, companion care 
providers, that provide great service to my mother and others 
like that over the years, in their waning years, now being 
frustrated as a result of those companies having an inability 
to care for those needs because it costs too much, so they have 
to make decisions on not providing that care for ones that need 
it until someone literally dies off and they can move someone 
in that place.
    That is not what we are as a country. That is what we are 
not as a government. I respectfully disagree with the approach, 
and I think that is why these hearings are here in place, to 
see that we have a tension, and we can get over it.
    We have to understand it is not us against them, them 
against us, but rather us working together to find regulations 
that are needed, yes, but done in a realistic way that promote 
opportunity, meet needs, and make a better society.
    We will keep doing it, and I guess the debate will go on, 
and we will do that with a smile on our face, but hopefully an 
intention to come to a conclusion that benefits us all.
    With no other testimony or information to come before the 
Committee, the Committee is adjourned.
    [Additional submissions by Chairman Walberg follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
          
    [Whereupon, at 11:29 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
